HHS/OIG, Audit -"Review of Medicare Contractors Pension Segmentation, CareFirst of Maryland,"(A-07-02-03033)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Medicare Contractors Pension Segmentation, CareFirst of
Maryland," (A-07-02-03033)
May 30, 2003
Complete
Text of Report is available in PDF format (1.1 MB). Copies can also be
obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final audit report points out that CareFirst of Maryland,
a Medicare contractor, understated Medicare segment pension assets by $6.8
million as of January 1, 2002.  This occurred because CareFirst; (1) made
an improper reallocation of pension assets on January 1, 1996 ($4.3 million
understatement), (2) incorrectly identified benefit payments ($0.1 million
overstatement), and (3) used an incorrect asset base in calculating earnings
and expenses ($2.6 million understatement).  We recommended that CareFirst
increase its Medicare segment assets by $6.8 million as of January 1, 2002.  CareFirst
concurred with our recommendation.